3

No.

“FftED
AUG 2 5 2020
•©rriCC OF THE CLERK
SUPREME COURT I iq

IN THE SUPREME COURT OF THE UNITED STATES

Dustin L. MacLeod
Petitioner
v.

WILLIAM MORITZ, Director,
MI Dept, of Natural Resources, et al.,

(I

Respondent

On Petition for Writ of Certiorari to the United States Court of
Appeals for the Sixth Circuit
Case No. 19-1887; Originating Case No. 5:18-cv-11653

Dustin L. MacLeod, in pro per
5759 S. Ridge Rd.
Sault Ste. Marie, MI 49783
<dustymac3@gmail.com>
906-630-0101

RECEIVED
SEP - 2 2020

QUESTION PRESENTED (Rule 14.1(a))
Is an “Indian Treaty” the Supreme Law of the Land?

TABLE OF CONTENTS
JURISDICTION

2

CONSTITUTIONAL PROVISIONS INVOLVED

2

STATEMENT OF CASE

2

REASONS FOR GRANTING THE PETITION

9

APPENDICES:
Appendix A - 1836 Treaty of Washington
Appendix B - Petitioner’s Motion for en banc Hearing .
Appendix C - US Sixth Circuit Court of Appeal’s order
denying en banc review
TABLE OF AUTHORITIES

li

Article 6, Clause 2, US Constitution
(McGirt v. Oklahoma, 591 U.S.

2
(2020)

2,3

United States, et al. v. Michigan, et al., US Dis. Court. MI
Western Dis., File No. 2:73-CV-26 (“Consent Decree”) ...4
Herrera v. Wyoming, case (139 S. Ct. 1686, 1697 (2019). 4,6
Johnson and Graham's Lessee v. M'Intosh, 21 U.S. (8
Wheat.) 543 (1823)
4
Cherokee Nation v. Georgia, 30 U.S. (5 Pet.) 1 (1831) .... 4
Worcester v. Georgia, 31 U.S. (6 Pet.). 515 (1832)

4

United States v. State ofMich., 471 F. Supp. 192 (W.D. Mich.
1979)
5,6
United States v. State of Mich., 653 F.2dh, US Court of
Appeals, Sixth Circuit 1983
6
Meeks v. Illinois Central Gulf R.R, 738 F.2d 748, 751 (6th
Cir. 1984)
12
li

APPENDICES (Supplemental, as required by Court per
its letter of October 19,2020, from Lisa Nesbitt):
Appendix D - Plaintiffs Reply to Defendant’s Motion to
Dismiss. Docket # 27.
Appendix E - Order for Supplemental Briefing Regarding
Defendants’ Motion to Dismiss. Docket #36.
Appendix F - Supplemental Brief ordered by the Court.
Docket #39.
Appendix G - Report and Recommendations. Docket #43.
Appendix H - Plaintiffs Motion for a Hearing Under Rule
12(i), and Motion to Deny Defendants’ Motion to Dismiss.
Docket #44.
Appendix I - (Plaintiffs) Objection to Magistrate’s Report
and Recommendations. Docket #46.
Appendix J - Defendants’ Response to Plaintiffs Objections
to the Report and Recommendations of the Magistrate.
Docket #48.
Appendix K - Motion for Declaratory Judgement (declared
“moot” by US District Court). Docket #51.
Appendix L - Order Adopting Report and Recommendation.
Docket #55.

m

No.

IN THE SUPREME COURT OF THE UNITED STATES

Dustin L. MacLeod, Petitioner
v.
WILLIAM MORITZ, Director,
MI Dept, of Natural Resources, et al., Respondent

On Petition for Writ of Certiorari to the United States Court
of Appeals for the Sixth Circuit

Petitioner, Dustin L. MacLeod, respectfully asks that
a writ of certiorari issue to review the judgment, opinion, and
mandate of the US Sixth Circuit Court of Appeal, filed on
June 8, 2020.

OPINION BELOW
The US Sixth Circuit Court of Appeal’s order denying
en banc review, dated May 29, 2020, is attached as Appendix
C.
1

JURISDICTION
The jurisdiction of this Court is invoked under 28 U.S.C. §
1257(a). The decision of the US Sixth Circuit Court of
Appeal denying Petitioner’s request for an en banc review,
for which petitioner seeks review, was issued on May 29,
2020. This petition is filed within 90 days of that Order.
CONSTITUTIONAL PROVISIONS INVOLVED
The Sixth Circuit’s Order conflicts with the
Supremacy Clause of the US Constitution:
This Constitution, and the Laws of the United
States which shall be made in Pursuance thereof; and
all Treaties made, or which shall be made, under the
Authority of the United States, shall be the supreme
Law of the Land; and the Judges in every State shall
be bound thereby, any Thing in the Constitution or
Laws of any State to the Contrary notwithstanding.”
(US Constitution, Article VI, Clause 2).

STATEMENT OF CASE
Furthermore, the US Supreme Court recently affirmed
that “Indian Treaties” are indeed the Supreme Law of the
Land, and state courts, and appeals courts, are bound thereby
(McGirtv. Oklahoma, 591 U.S.

(2020)). The section of

the ruling relevant to this case is quoted below:
2

Under our Constitution, States have no authority to
reduce federal reservations lying within their borders.
Just imagine if they did. A State could encroach on the
tribal boundaries or legal rights Congress provided,
and, with enough time and patience, nullify the
promises made in the name of the United States. That
would be at odds with the Constitution, which entrusts
Congress with the authority to regulate commerce with
Native Americans, and directs that federal treaties and
statutes are the “supreme Law of the Land.” Art. I, §8;
Art. VI, cl. 2. It would also leave tribal rights in the
hands of the very neighbors who might be least
inclined to respect them. (McGirt v. Oklahoma, 591
U.S.
(2020), page 7; emphasis added).
In reviewing materials for this Writ, petitioner
searched the Defendants’ filings for any valid reference to
any “Indian Treaty” case. There are none. Furthermore,
during the pendency of this case, the US Supreme Court
issued its “Indian Treaty” ruling in the McGirt case, cited and
quoted, above.
Consequently, Petitioner simply asks this Honorable
Court to retroactively apply that McGirt ruling to this case
and reaffirm that “Indian” Treaties are indeed the Supreme
Law of the Land, and, therefore, the “usual privileges of
occupancy,” including “the construction and use of a sweat
lodge” (the “reserved right” lying at the core of this case, as
the record shows: see United States, etal. v. Michigan, et
3

al., US Dis. Court. MI Western Dis., File No. 2:73-CV-26
(“Consent Decree”). Section 6.2(a)(ii) of that Decree)),
which constitutes a solemn promise by the US Government,
codified as Article XIII of the 1836 Treaty of Washington
(see Appendix A), is the Supreme Law of the Land.
Despite this clear and unequivocal language, the
“local” court referred to above simply refused to recognize
that the 2007 Inland Consent Decree applied to individual
human beings. Ignoring this plain “tribal member” language,
the local court Judge, instead, ruled that “tribes” can construct
and use sweat lodges, and other Ceremonial Sacred Structures
on “state land,” but human beings cannot.
That is, state and federal “inferior” courts have ruled
that human beings, individual Tribal members, have no rights
under “Indian Treaties” that the state, or district federal
courts, or a federal court of appeals, are obliged to recognize
-it is unconstitutionally-claimed that those rights belong to
the tribes, not to individual human beings, not to individual
Tribal members. This spurious “ruling” has led to the filing
of the Civil Rights lawsuit under review by this Court.
4

Consequently, following that perverted “logic,” all
of the courts who have reviewed this case have ruled that if
the victims of a Hate Crime are American Indians, they
have no rights under the Constitution that state or federal
courts are obliged to recognize. To that end, Petitioner
would also like the Court to add to its deliberations in this
case its recent ruling in the Herrera v. Wyoming, case (139
S. Ct. 1686, 1697 (2019)) wherein it states that Clavin
Herrera, and individual human being, an individual Tribal
member, was “entitled to a treaty-based defense” (page
1693). In the Herrera case, the US Supreme Court also
stated that: "Treaty analysis begins with the text"; to wit, in
this case, with “the usual privilege of occupancy” reserved
rights of Article XIII of the 1836 Treaty of Washington to
construct and use a sweat lodge.
Petitioner also asks this Court to consider the
Canons of Treaty Construction as set out in the Marshall
Trilogy. (Johnson and Graham's Lessee v. M'Intosh, 21
U.S. (8 Wheat.) 543 (1823); Cherokee Nation v. Georgia,
30 U.S. (5 Pet.) 1 (1831); and Worcester v. Georgia, 31
5

U.S. (6 Pet.)- 515 (1832)); Herrera v. Wyoming, 139 S.Ct.
1686, 1699 (2019) (citations omitted). That is, federal
Indian Law Canons of Treaty Construction provide that
"Indian treaties” ‘must be interpreted in light of the parties'
intentions, with any ambiguities resolved in favor of the
Indians' and the words of a treaty must be construed 'in the
sense in which they would naturally be understood by the
Indians.’"
Here is the core of this Writ: all of the lower Courts
(state and federal), including the Sixth Circuit (both the 3judge panel, and the entire court, en banc) agree (at least,
they do in 2020): the 1836 “Indian” Treaty of Washington’s
Article XIII “usual privileges of occupancy,” which, in
plain and convincing language, includes the reserved
occupancy right of individual human beings, individual
Tribal members, to “construct and use a sweat lodge,” is
not the Supreme law of the Land, despite the US
Supreme Court’s ruling in its recent McGirt case to the
(2020);

contrary. (McGirt v. Oklahoma, 591 U.S.

(Section 6.2(a)(ii) of the 2007 Inland Consent Decree. See
6

also United States, et al. v. Michigan, et al., US Dis. Court.
MI Western Dis., File No. 2:73-CV-26 (“Consent
Decree”).
Petitioner would like to exposit on that US v.
Michigan ruling, briefly. In that ruling, Judge Fox wrote:
Before the filing of the complaint and continuously
during the course of these proceedings, the State of
Michigan and certain individually named state officials
have acted in derogation of the vested aboriginal and
federal rights of the plaintiff Indian tribes. The conflict
between the state and tribal fisherman is notorious;
scarcely a day goes by without an article appearing in
one or more of the state's major newspapers
concerning the controversy. That it is a passionate
issue is exemplified by a recent wholly improper
attempt to influence this Court through the circulation
of petitions amongst sports fishermen which urged that
the court rule against the Indians. The circulation of
petitions is an action diametrically at odds with the
methods of access to the courts mandated by the
Federal Rules of Civil Procedure. This misguided
action gave thousands of people the erroneous
impression that constitutional rights are a matter of
popular contest. This was a corruption of the concept
of the Federal Judicial system. In a democracy, many
times people violate Constitutional and Inalienable
rights. The United States Courts exist to ensure
guaranteed constitutional rights against the
TYRANNY OF POPULAR MAJORITIES. Federal
Court Judges are, or ought to be, custodians of secured
constitutional right, (all-caps emphasis in original)
United States v. State ofMich., 471 F. Supp. 192
(W.D. Mich. 1979), page 205.

7

That is, Federal Court Judges, and Federal Appeals Court
Judges, must act in order to secure the “Supreme Law of
the land”: the Petitioner’s “Indian Treaty-based”
constitutional right to engage in the “usual privileges of
occupancy,” which includes the reserved right to “construct
and use a sweat lodge.” Of course, in the absence of that
action by the inferior courts, that guarantee of secured
Constitutional rights against the TYRANNY OF
POPULAR MAJORITIES lies with this Supreme Court.
CONSTITUTIONAL QUESTIONS
Is the 1836 Treaty of Washington the Supreme Law of
the Land?
The US Supreme Court, in its 2020 McGirt decision,
answered YES.
In its 1983 ruling on the “usual privilege of
occupancy ‘Indian Treaty’ rights,” the Sixth Circuit also
answered YES, to wit:
With respect to state court jurisdiction over
cases involving Indian treaty fishing, we agree with
the argument and position of the United States
presented on June 19, 1981. While these questions
concerning Indian treaty rights and the degree of
permissible state regulation are pending in this Court
8

and in the District Court, it is improper under the
Supremacy Clause of the United States Constitution
for the state courts to make orders inconsistent with
those of the federal courts.11 United States v. State of
Mich., 653 F.2d at 279-80, US Court of Appeals,
Sixth Circuit. 1983.

Yet, in its ruling at the heart of this case, in 2020, the Sixth
Circuit answered NO, despite the fact that, in 1984 the
Sixth Circuit said: “There is ... the familiar rule that a panel
of this court may not overrule a previous panel's decision.
Only an en banc court may overrule a circuit precedent,
absent an intervening Supreme Court decision. ” Meeks v.
Illinois Central GulfR.R, 738 F.2d 748, 751 (6th Cir.
1984). Clearly, in 1984, the en banc Sixth Circuit did not
overrule its own 1983 precedent, waiting until 2020 to do
so in the case before this Court.
REASONS FOR GRANTING THE PETITION
The granting of this Writ is necessary to reconcile
the Sixth Circuit intra-panel contradictions, and the
contradictions between the inferior courts and those of the
US Supreme Court. Consequently, this case presents
important issues over which the federal and state courts are
9

divided.
Petitioner urges this Court to take review in order to
uphold its own decisions, and that of the 1983 Sixth Circuit,
holding that “Indian Treaties” are indeed “the Supreme Law
of the Land,” and that “Indian Treaties” clearly recognize
“reserved rights” that can be exercised by individual human
beings, individual Tribal members.
CONCLUSION
For the foregoing reasons, petitioner requests that this
Court grant the petition for certiorari.

Respectfully submitted, Dustin Lee MacLeod
Dated:

10

